Office of Inspector General

        SEMIANNUAL
         REPORT TO
         CONGRESS

For the Period October 1, 2007 through March 31, 2008



                Report No. 38




  “Democracy demands wisdom and vision in its citizens”
National Foundation on the Arts and Humanities Act of 1965
                    THE OFFICE OF INSPECTOR GENERAL

                                 serves American taxpayers
                           by investigating reports of waste, fraud,
                        mismanagement, abuse, integrity violations or
                         unethical conduct involving Federal funds.



                               To report any suspected activity
                     involving NEH programs, operations, or employees

                                    Call the OIG Hotline

                                      1 (877) 786-7598



                                      Mailing Address

                      Office of Inspector General — Hotline
                     National Endowment for the Humanities
                          1100 Pennsylvania Ave. N.W., Room 419
                                 Washington, DC 20506


                                            Fax

                                      (202) 606-8329


                                  Electronic Mail Hotline

                                        oig@neh.gov




Government employees are protected from reprisal

Caller can remain anonymous

Information is confidential
     NATIONAL                                                               OFFICE OF INSPECTOR GENERAL
     ENDOWMENT                                                              1100 PENNSYLVANIA AVE., NW
     FOR THE                                                                WASHINGTON, D.C. 20506
     HUMANITIES                                                             ROOM 419
                                                                            TELEPHONE(202) 606-8350
                                                                            FACSIMILE (202) 606-8329
                                                                            E-mail oig@neh.gov




                                        April 30, 2008

Honorable Bruce Cole
Chairman
National Endowment for the Humanities
Washington, DC 20506

Dear Chairman Cole:

I am pleased to provide you with the Office of Inspector General’s Semiannual Report to
Congress for the first half of fiscal year 2008. The report is submitted in accordance with the
Inspector General Act of 1978, as amended. Section 5 of the Act requires that you submit
this report, with your Report of Final Action, to the appropriate committee or subcommittee
of the Congress within 30 days of its receipt. The report provides a summary of the activities
of the OIG during the six-month period ended March 31, 2008.

During the current period, OIG auditors completed and issued final reports concerning NEH
and grantee operations. Internally, we reviewed proposed solutions to findings cited in our
FISMA review of the Oracle Accounting System. We transmitted the final report issued by
Leon Snead & Company, P.C. in which an unqualified opinion was expressed on the NEH
fiscal year 2007 financial statements. External effort consisted of three desk reviews of
grantee compliance with Office of Management and Budget Circular A-122 concerning sup-
port of salaries and wages; six reviews of grantee overhead rates; and review of 25 OMB
Circular A-133 audit reports.

In our investigations program, we had two matters open as of the beginning of the reporting
period. We received six “Hotline” contacts during the period. As of March 31, 2008, seven
matters remain open.

Significant progress has been made concerning the segregation of duties material weakness
noted during prior audits of the agency’s financial statements. The NEH Accounting Office,
with help from the Office of Information Resources Management and the Office of Adminis-
trative Services, has made significant progress with the Oracle Accounting System. I appre-
ciate your support and look forward to working with you and all agency staff to further our
common purpose of assuring the effectiveness, efficiency and integrity of NEH’s vital con-
tributions to the humanities.
                                              Sincerely,



                                             Sheldon L. Bernstein
                                             Inspector General
                                           TABLE OF CONTENTS


LETTER TO THE CHAIRMAN

MESSAGE FROM THE INSPECTOR GENERAL………………………………………………                                                                              1

THE NATIONAL ENDOWMENT FOR THE HUMANITIES…… ............................................                                          2

THE OFFICE OF INSPECTOR GENERAL ...........................................................................                       2

AUDIT AND REVIEW ACTIVITIES .......................................................................................               3

INVESTIGATIVE ACTIVITIES ……………………………………………………………………                                                                              7

OTHER ACTIVITIES..............................................................................................................   9

PRIOR AUDIT REPORTS UNRESOLVED……………………………………………………...                                                                            11

TABLE I - REPORTING REQUIREMENTS…………………………………………………......                                                                        12

TABLE II - INSPECTOR GENERAL-ISSUED REPORTS.....................................................                                 13
WITH QUESTIONED COSTS

TABLE III - INSPECTOR GENERAL-ISSUED REPORTS WITH .........................................                                      13
RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

GLOSSARY OF AUDIT TERMINOLOGY .............................................................................                      14
                        MESSAGE FROM THE INSPECTOR GENERAL

           Over the past several years, our workload has constantly increased in volume and complexity and,
           as a consequence, oversight of the Endowment’s grantees by the OIG is diminishing.

           The OIG is responsible for contracting with and reviewing the work of an independent public ac-
           countant that conducts the annual financial statements audit. The audit is required by the Account-
           ability of Tax Dollars Act of 2002, and applies to many small agencies as well as the Endowment.
           The Federal Information Security Management Act (FISMA) review has been performed for several
           years as required. Each year the Office of Management and Budget (OMB) issues guidance for the
           review. The National Institute for Standards and Technology (NIST) Computer Security Division
           issues publications that the agency is responsible for implementing. The OIG is responsible for re-
           viewing the agency’s implementation. The General Accountability Office and the President’s Coun-
           cil on Integrity and Efficiency periodically update their various guidance on auditing, inspections and
           reviews, and investigations. This increases the burden on the OIG.

           OMB Circular A-133, Audits of States, Local Governments and Non-Profit Organizations, issued
           pursuant to the Single Audit Act of 1984, (as amended), sets forth audit guidance applicable to the
           expenditure of Federal awards by non-Federal entities. The threshold for an audit is the expenditure
           of $500,000 or more in a fiscal year. Consequently, the threshold level eliminates audits for a sig-
           nificant number of non-profit organizations that receive grants from the Endowment, including ap-
           proximately 17 of the 56 state humanities councils. The President’s Council on Integrity and Effi-
           ciency issued a report on the single audits. The report disclosed that a majority of the work per-
           formed on OMB Circular A-133 audits did not meet professional standards. Thus, besides having
           fewer NEH grantees subject to the OMB A-133 audit, the reports issued are not totally reliable. This
           clearly indicates that the OIG needs more resources to provide adequate coverage of grantees.

           Another impact on our oversight of grantees is internal and grantee investigations. Opening an in-
           vestigation has a significant impact on our audit plan because we do not have staff dedicated to in-
           vestigation work. Therefore, it becomes necessary to reassign audit staff trained in investigation
           work to perform the investigation. With significant fluctuations on a yearly basis, it is difficult to be
           proactive in investigations or realistically budget staff time for this effort. Also, during the past sev-
           eral years, the NEH Office of General Counsel has operated with fewer staff than previously. The
           deputy general counsel is also the General Counsel to the IG. Therefore, we have been operating
           without counsel for some time.

           Our suggested solution concerning these issues is to enter into contracts for a part-time attorney
           and a part-time auditor. Both positions would require the individuals to have prior Federal govern-
           ment service in a department or agency that engages in grant making.




NEH OIG Semiannual Report                                       1                                                       March 2008
             THE NATIONAL ENDOWMENT FOR THE HUMANITIES
      In order to promote progress and scholarship in the humanities and the arts in the United States, Con-
      gress enacted the National Foundation on the Arts and the Humanities Act of 1965. This Act estab-
      lished the National Endowment for the Humanities as an independent grant-making agency of the Fed-
      eral government to support research, education, and public programs in the humanities. Grants are
      made through four divisions - Research Programs, Education Programs, Preservation and Access, and
      Public Programs -- and two offices -- Challenge Grants and Federal-State Partnership. The divisions
      and offices also administer the We the People: NEH’s American History initiative.

      The NEH has a new initiative — Picturing America. This program “… provides an innovative way for
      citizens of all ages to explore the history and character of American through some of our nation’s great-
      est works of art. Images of people, places and events from American history give citizens everywhere
      a chance to better understand our country’s past and the principles for which it stands.” Information
      can be found at PicturingAmerica.neh.gov.

      The Act that established the National Endowment for the Humanities says "The term 'humanities' in-
      cludes, but is not limited to, the study of the following: language, both modern and classical; linguistics;
      literature; history; jurisprudence; philosophy; archaeology; comparative religion; ethics; the history, criti-
      cism, and theory of the arts; those aspects of social sciences which have humanistic content and em-
      ploy humanistic methods; and the study and application of the humanities to the human environment
      with particular attention to reflecting our diverse heritage, traditions, and history and to the relevance of
      the humanities to the current conditions of national life."




                            THE OFFICE OF INSPECTOR GENERAL
       The NEH Office of Inspector General was established April 9, 1989, in accordance with the Inspector
       General Act Amendment of 1988, (Public Law 100-504). In this legislation, Congress established Of-
       fices of Inspector General in several departments and in thirty-three agencies, including the NEH. The
       NEH Inspector General (IG) is appointed by the Chairman. The independence of the IG is an impor-
       tant aspect of the Act. For example, the IG: cannot be prevented from initiating, carrying out, or com-
       pleting an audit or investigation, or from issuing any subpoena; has access to all records of the
       agency; reports directly to the Chairman, and can only be removed by the Chairman, who must
       promptly advise Congress of the reasons for the removal; and reports directly to Congress.

       The Act states that the Office of Inspector General is responsible for (1) conducting audits and investi-
       gations; (2) reviewing legislation; (3) recommending policies to promote efficiency and effectiveness;
       and (4) preventing and detecting fraud, waste, and abuse in the operations of the agency. The In-
       spector General is also responsible for keeping the Chairman and Congress fully and currently in-
       formed of problems and deficiencies in the programs and operations.

       The OIG staff consists of the Inspector General, Deputy Inspector General, two auditors, and a secre-
       tary. The OIG and the Office of the General Counsel (OGC) have a Memorandum of Understanding
       detailing the procedures for the OIG to be provided with OGC legal services. Investigations are han-
       dled by the Inspector General, an auditor, and as required by the agency’s Deputy General Counsel.




NEH OIG Semiannual Report                                      2                                                       March 2008
                                AUDIT AND REVIEW ACTIVITIES

                                           LIST OF REPORTS ISSUED
    This office is responsible for external and internal audits. External auditing includes grants, pre-award
    accounting system surveys, review of OMB Circular A-133 audit reports, overhead desk reviews, limited
    scope desk reviews, and on-site quality control reviews of CPA workpapers. Internal efforts consist of
    audits, inspections, and reviews/evaluations of NEH administrative, programmatic, and financial operations.

    Following is a list of reports issued by the OIG during this reporting period. The Inspector General Act of
    1978, as amended, requires us to report on the "Dollar Value of Recommendations that Funds Be Put to
    Better Use" and the "Total Dollar Value of Questioned Costs" (including a separate category for the “Dollar
    Value of Unsupported Costs”), [see Table II].

                                                                 Report Number                   Date Issued

   INTERNAL AUDITS/REVIEWS

             Final Audit Report                                  Advisory Memorandum             11/08/07
              Financial Statement Audit FY 2007

             Closing of the Findings for FISMA Review -          OIG-08-01 (IR)                  03/27/08
              Oracle Accounting System Review


   EXTERNAL AUDITS/REVIEWS

             American Philosophical Society                      OIG-08-01 (DR)                  02/13/08
             Library of America                                  OIG-08-02 (DR)                  02/14/08
             Save Ellis Island!                                  OIG-08-03 (DR)                  02/20/08


             OVERHEAD DESK REVIEWS

             Foundation of the American Institute for            NEH-08-01 (ODR)                 02/15/08
              Conservation of Historic and Artistic Works
             Huntington Library                                  NEH-08-02 (ODR)                 02/15/08
             Oregon Historical Society                           NEH-08-03 (ODR)                 02/15/08
             American Philosophical Society                      NEH-08-04 (ODR)                 02/20/08
             Virginia Historical Society                         NEH-08-05 (ODR)                 02/15/08
             New York Public Library                             NEH-08-06 (ODR)                 03/12/08


             SINGLE AUDIT ACT REVIEWS

             25 OMB Circular A-133 Reports                                          - see Page 7 -




NEH OIG Semiannual Report                                    3                                                    March 2008
                                   AUDIT AND REVIEW ACTIVITIES

                                         SUMMARY OF REPORTS ISSUED

                                               INTERNAL AUDITS/REVIEWS

                                                    Final Audit Report
                                        Financial Statement Audit Fiscal Year 2007
                                                     November 8, 2007

    We issued a memorandum transmitting the final report on the audit of the fiscal year 2007 financial statements of the
    National Endowment for the Humanities. The OIG engaged Leon Snead & Company, P.C., (IPA) to perform the au-
    dit as required by the Accountability of Tax Dollars Act of 2002. The OIG was responsible for 1) evaluating the quali-
    fications and independence of the auditors; 2) reviewing the auditors’ approach and planning of the audit; 3) monitor-
    ing the work of the auditors; 4) examining audit workpapers and reports to ensure compliance with Government Au-
    diting Standards, OMB Bulletin No. 06-03, Audit Requirements for Federal Financial Statements, and the Financial
    Audit Manual issued jointly by the Government Accountability Office (GAO) and the President’s Council on Integrity
    and Efficiency (PCIE); and 5) other procedures deemed necessary to oversee the contract and the audit.

    The IPA expressed an unqualified opinion on the NEH financial statements as of and for the years ended September
    30, 2007 and 2006. The IPA’s testing of internal controls identified no material weaknesses in financial reporting.
    The results of the IPA’s tests of compliance with certain provisions of laws and regulations disclosed no instances of
    noncompliance required to be reported.

    However, the IPA identified a significant deficiency in internal control related to the NEH system access authorities.
    The IPA noted that NEH has made significant progress in separating incompatible duties and in implementing sys-
    tems-enforced separation of incompatible duties. (The IPA originally reported a material weakness in control related
    to separation of incompatible duties in the reports on the audits of the agency’s financial statements for fiscal years
    2005 and 2006.) The IPA acknowledged that the agency has additional plans to refine those controls. However, the
    IPA recommended that the agency implement further controls to improve access security.



                            Closing of the Findings for Federal Information Security Act (FISMA) Review
                                                 Oracle Accounting System Review
                                                   March 27, 2008; OIG-08-01 (IR)

    The purpose of our review was to ensure that the proposed solutions to our findings reported for the fiscal year 2006
    FISMA review concerning the Oracle Accounting System were adequate and resolved the findings to our satisfac-
    tion. The scope of our review was limited to the findings in the FISMA report and inspection of the solutions pro-
    posed to resolve those findings. We reviewed the material supporting the proposed solutions as supplied to us by
    the Director of the Accounting Office and the Systems Accountant. We also met with the Director of Accounting and
    the Systems Accountant to discuss the proposed solutions and, where applicable, we obtained and reviewed avail-
    able supporting documentation from the agency’s information system. Finally, we researched the Grants Manage-
    ment System (GMS) scripting process that uploads grant information into Oracle, and the system used to upload
    payroll information from the National Finance Center (NFC) into Oracle.

    Based on our review, we concluded that the proposed solutions are adequate and satisfactorily address our findings
    in the fiscal year 2006 FISMA report. However, we made specific recommendations that would strengthen the pro-
    posed solution concerning use of the system generated reports as an additional control to address the separation of
    duties finding.




NEH OIG Semiannual Report                                   4                                                       March 2008
                                      AUDIT AND REVIEW ACTIVITIES

                                                     EXTERNAL AUDITS/REVIEWS


         During the six-month period ending March 31, 2008, we reported on the results of our desk reviews concern-
         ing the following organizations:

                            ♦   American Philosophical Society [ OIG-08-01 (DR) ]
                            ♦   The Library of America [ OIG-08-02 (DR) ]

         The objective of each desk review was to assess the adequacy of the time and effort accounting policies
         and procedures implemented by the respective organizations to ensure compliance with OMB Circular A-
         122, Cost Principles for Non-Profit Organizations. The desk reviews were performed in accordance with
         PCIE/ECIE Quality Standards for Inspections.

                                                American Philosophical Society
                                               OIG-08-01 (DR); February 13, 2008

         Based on the results of our review and our understanding of the organization’s time and effort accounting
         policies and procedures, we concluded that procedures are in place at the American Philosophical Society
         that would ensure compliance with the requirements set forth in OMB Circular A-122 concerning support of
         salaries and wages. However, we observed that the personnel activity reports included in our desk review
         reflected effort allocations consistent with budgeted effort allocations. We noted in our communication to the
         organization that this gives the appearance that budgeted levels of effort are being used to allocate actual
         salaries to the project currently being supported by an NEH grant. We advised the organization that budget
         estimates do not qualify as support of salaries and wages either claimed for reimbursement from awarding
         agencies or used in meeting cost sharing or matching requirements on Federal awards.

                                                    The Library of America
                                               OIG-08-02 (DR); February 14, 2008

         We concluded, based on the results of our review, that the organization’s time and effort accounting policies
         and procedures are adequate to ensure compliance with the requirements set forth in OMB Circular A-122
         concerning support of salaries and wages. However, there were employee personnel activity reports (PARs)
         included in our desk review that did not appear to be maintained in accordance with the organization’s poli-
         cies and procedures. We observed instances where employee PARs were signed and dated months after
         the end of the periods represented by the PARs. There were also instances where the dates of the em-
         ployee’s signature and the supervisor’s signature were months after the end of the applicable quarter. We
         communicated to the organization that this condition adversely affects the timeliness and integrity of quar-
         terly postings to the general ledger as prescribed by the organization’s policy and procedures. We advised
         that the PAR should be certified prior to its use as a basis for salary allocations to projects supported by
         Federal awards.

                                                       Save Ellis Island!
                                               OIG-08-03 (DR); February 20, 2008

         We completed a follow-up desk review to test the corrective action implemented by Save Ellis Island! in re-
         sponse to observations noted in our prior review of the organization’s time and effort accounting policies and
         procedures. During our initial review, we observed that the timesheets, as prepared by employees, were not
         being used as the basis for charges to NEH grants.

         We have concluded, based on the results of our follow-up review, that the organization’s revised time and
         effort accounting procedures establish the usefulness of the employee timesheets as the basis for charges
         to NEH grants which satisfies the requirements set forth in OMB Circular A-122 concerning support of sala-
         ries and wages.




NEH OIG Semiannual Report                                      5                                                  March 2008
                                  AUDIT AND REVIEW ACTIVITIES

                                                  Overhead Desk Reviews

     The OIG performs overhead desk reviews (ODRs) for grantees requiring indirect cost rates. The reviews are
     done in accordance with the PCIE/ECIE Quality Standards for Inspections. The OIG sends the results of the
     ODRs to the Assistant Chairman for Planning and Operations, who negotiates the indirect cost rates with the
     grantees. We completed six reviews during this period. (See page 3).

                                                 Single Audit Act Reviews

     During fiscal year 2007, more than 80 percent of NEH’s expenditures were payments made to grantees. The
     Single Audit Act Amendment of 1996 covers many NEH grantees. Grantees expending $500,000 or more in
     Federal dollars per annum are required to obtain an OMB Circular A-133 audit. The objective of the audit is to
     determine whether the recipients expend Federal funds according to applicable laws and regulations. The OIG
     receives OMB Circular A-133 reports from other Federal agencies (primarily the Department of Health and Hu-
     man Services), state and local government auditors, independent public accountants, and grantees.

     During the six-month period ended March 31, 2008, we reviewed 25 OMB Circular A-133 audit reports. None
     of the reports contained findings that required reporting by the OIG to NEH management.


                                                 WORK IN PROGRESS

     Review of Office of Grant Management (OGM) Training for New Staff

     One of the management challenges as of September 30, 2007, was that several OGM staff with over 30 years
     experience were retiring. Another staff person retired during the previous year. The OGM has recently hired
     personnel who previously worked in other offices within the agency, with no grant management experience.
     Our preliminary work indicates that the OGM has provided initial training to new staff through experienced quali-
     fied training organizations.

     Inspection ~ Newport Historical Society

     The objectives of this inspection are to (1) assess the eligibility of gifts certified to release matching funds under
     a challenge grant awarded to Newport Historical Society (the Society); and (2) determine if the Society is using
     the income from the NEH-supported endowment in accordance with the budget submitted to and approved by
     NEH.

     Desk Review of Documentation Related to Salaries and Wages Charged to NEH Grants ~ The OASIS
     Institute

     The objective of this desk review is to assess the adequacy of the time and effort accounting policies and pro-
     cedures implemented by The OASIS Institute to ensure compliance with OMB Circular A-122, Cost Principles
     for Non-Profit Organizations.

     Pre-Award Telephone Survey ~ The Walters Art Museum

     The objective of this telephone survey is to obtain information to determine the adequacy of the organization’s
     accounting system, management controls, and policies and procedures designed to administer grant funds.

     Overhead Desk Reviews

          ♦    The OASIS Institute
          ♦    Southeastern Library Network, Inc. (SOLINET)
          ♦    Iraq Memory Foundation


NEH OIG Semiannual Report                                     6                                                     March 2008
                                      INVESTIGATIVE ACTIVITIES
                                                       BACKGROUND
  The Inspector General Act provides the authority for the Office of Inspector General to investigate possible vio-
  lations of criminal or civil laws, administrative regulations, and agency policies, which relate to the programs
  and operations of the NEH. The OIG Hotline, e-mail address, and regular mail are efficient and effective means
  of receiving allegations or complaints from employees, grantees, contractors, and the general public. The OIG
  has obtained assistance from other OIGs, the Federal Bureau of Investigation, the Postal Inspection Service,
  and other investigative entities as necessary.

  When the OIG receives a complaint or allegation of a criminal or administrative violation, we make a determina-
  tion of the appropriate action to take. The result could be an audit, an investigation, a referral to another NEH
  office or division, a referral to another Federal agency, or no action.


                                             OPEN AT OCTOBER 1, 2007

  Two contacts were open at October 1, 2007. The first is a Misconduct in Research case involving a university that
  allegedly omitted critical information from the NEH grant application that may have affected the awarding of the
  grant. We are working with a professional organization of the discipline concerning the allegation. In addition, we
  are communicating with experts who are familiar with the subject matter. We expect to have this case closed in
  April 2008.

  The other contact involves an NEH challenge grant recipient and was brought to our attention by a former em-
  ployee of the organization. The allegation states that the grant recipient certified ineligible gifts to NEH. As a re-
  sult of the certification, matching funds in the amount of $400,000 were released under the challenge grant. As of
  March 31, 2008, we recovered more than $283,000. The grantee has been given three additional weeks to pro-
  vide documentation or return $117,000 to NEH. This case will be closed in April 2008.


                        CONTACTS DURING THE SIX MONTH PERIOD ENDED MARCH 31, 2008

  We received six “Hotline” contacts during the reporting period. One involved an NEH employee and the other five
  involved grantees. The internal situation involved an NEH timekeeper who had falsified his/her own timesheets
  over a period of five years. The NEH Office of Human Resources (OHR) discovered the problem. The amount of
  the theft was more than $35,000. The OHR obtained all of the documentation and NEH eventually terminated the
  person. The OIG has presented a case to the Department of Justice Criminal Division. We are waiting for their
  response if they accept or decline the case.

  The first grantee matter was brought to our attention by the U.S. General Accountability Office Hotline Division
  and involved alleged improper actions of an executive director at a state humanities council. The OIG is obtaining
  information from the Council’s staff and has made contact with several former employees. The former employees
  have refused to provide information to the OIG, and we learned that several have “non-disclosure” agreements
  with the Council/former executive director. Our counsel will be preparing subpoenas to obtain the documents nec-
  essary to complete our investigation.

  As is the general practice of the NEH Office of Grant Management, they reported to the OIG that final reports
  were not received from a grantee. Eventually, the reports were received and accepted by NEH and we closed our
  file.

  The Office of Grant Management and the Division of Preservation and Access informed the OIG that board mem-
  bers of a current grantee were resigning because the grantee was allegedly wasting funds on building a lavish
  hotel. Previous to the allegation, the NEH Acting General Counsel informed the OIG that the grantee was re-
  questing permission to use funds from a challenge grant that ended in 2006 to build the hotel. We informed NEH
  to suspend the current grant in accordance with Office of Management and Budget procedures. This matter is still
  pending final disposition.




NEH OIG Semiannual Report                                    7                                                 March 2008
                                         INVESTIGATIVE ACTIVITIES


    We received a telephone “Hotline” complaint from a former employee of an organization that has a current NEH
    challenge grant. The anonymous complainant alleged that the organization falsified information on the grant
    application. The OIG reviewed the grant folder and discussed with program staff the information that was al-
    leged to be incorrect. NEH staff did not find the information being relevant to the extent that it would have pre-
    vented the NEH from making the award. The OIG reviewed the grantee’s website and learned that the NEH
    challenge grant was not disclosed. Therefore, we will audit the first certification that the grantee submits to de-
    termine if the gifts are eligible for matching. Our exam will begin in the next semiannual reporting period.

    The last grantee allegation was brought to our attention by an individual/organization that was not awarded a
    contract from one of the state humanities councils. Our inquiries of the Council staff and of the person making
    the allegations has led us to the preliminary opinion that the winning bidder met the criteria of the invitation to
    bid. We have informed the Council and the complainant of this; however, we have requested the Office of Fed-
    eral State Partnership staff to review the information from a program/humanist viewpoint. We expect to have
    this situation closed in April 2008.

                                               OPEN AT MARCH 31, 2008

    As discussed above, only one matter was closed during this period with several scheduled to be completed by
    the end of April 2008. Thus, of the two open at the beginning of the period and the six received during the pe-
    riod, seven remain open at March 31, 2008.


                              MATTERS REFERRED TO PROSECUTIVE AUTHORITIES

    We reported one internal matter to the Department of Justice Criminal Division. We are waiting to hear if they
    will be accepting the case.

                                       HOTLINE AND PREVENTION ACTIVITIES

    We maintain a local Hotline phone number, an agency e-mail address, and an internet address to provide addi-
    tional confidentiality for those persons bringing matters to the attention of the OIG. We periodically issue
    agency-wide e-mail messages informing NEH staff of violations that are reportable to the OIG. We also send e-
    mail messages several times during the year to inform NEH staff about the OIG operations. Posters advising
    staff to contact the OIG are displayed throughout the agency’s facilities.


                                        SUMMARY OF INVESTIGATION ACTIVITY



                                          Open at beginning of period               2



                                       Matters brought to the OIG during
                                              the reporting period                  6


                                          Total investigative contacts              8

                                     Closed, referred, or no action needed
                                          during the reporting period               1

                                             Open at end of period                  7


NEH OIG Semiannual Report                                    8                                                  March 2008
                                                OTHER ACTIVITIES

                                      REGULATORY AND LEGISLATIVE REVIEWS

  The Inspector General Act of 1978, as amended, requires the Office of Inspector General to review proposed legisla-
  tion and regulations. The reviews are to assess whether proposed legislation and/or regulations (1) affect the econ-
  omy and efficiency of agency programs and operations, and (2) contain adequate internal controls to prevent and de-
  tect fraud and abuse. During this period, no legislative reviews were required.

                                             WORKING WITH THE AGENCY

  OIG staff attend various NEH meetings - panel meetings (where grant applications are reviewed by outside consult-
  ants), pre-council meetings (where program staff discuss panel review results with the Chairman and his immediate
  staff), and the National Council meeting. Also, the IG or Deputy IG attends the Chairman's monthly policy group meet-
  ings. The Office of Inspector General contributes to the discussions but does not participate in policymaking.

  The Office of Inspector General participated with the NEH Chairman, other NEH program, grant management, and
  senior staff in the 2007 National Humanities Conference sponsored by the Federation of State Humanities Councils.
  OIG staff conducted a workshop session discussing topics related to state humanities councils’ compliance and audit
  responsibilities. State council executive directors, fiscal officers, and Board members were in attendance.



                                 PARTICIPATION ON THE EXECUTIVE COUNCIL ON
                                          INTEGRITY AND EFFICIENCY


In 1992, the President established the Executive Council on Integrity and Efficiency (ECIE) to coordinate and implement
government-wide activities to combat fraud and waste in Federal programs and operations. OIG staff regularly attend
ECIE meetings and provide input to the ECIE. The Inspector General is a member of the Audit Committee of the Presi-
dent's Council on Integrity and Efficiency, and participates in the Misconduct in Research meetings. In addition, he is a
member of the Grant Fraud Committee, a subcommittee of the National Procurement Fraud Task Force. The Deputy IG
participates in the Single Audit Round Table and the Federal Audit Executive Council (FAEC). One senior auditor at-
tends the monthly meetings of the Financial Statement Audit Network, a subcommittee of the FAEC.


                                          INTRA-GOVERNMENTAL ACTIVITY

Congressional Inquiry

We responded to an inquiry from the Honorable Henry A. Waxman, Chairman of the House of Representatives ~ Com-
mittee on Oversight and Government Reform concerning recommendations made by the OIG from January 1, 2001 to
the date of the inquiry that have not been implemented by agency officials.


Collaboration with the National Science Foundation ~ Office of Inspector General

OIG staff attended a planning meeting to discuss a prospective joint investigative effort concerning a major media
grantee. The joint effort would involve IG staff from four (4) Federal agencies. The investigation would be led by the
NSF ~ OIG.




 NEH OIG Semiannual Report                                   9                                                March 2008
                                   OTHER ACTIVITIES (Continued)

                                           OIG INTERNET AND INTRANET

 The OIG has posted several semiannual reports on the internet and on the NEH intranet. The reports are accessible
 through the NEH homepage and the OIG homepage (http://www.neh.gov/whoweare/OIG.html).

 To advance NEH staff recognition of the OIG mission and responsibilities, we provide links to several other Federal
 agencies such as the Office of Management and Budget, the General Accountability Office, the Office of Government
 Ethics, and the IGNET.


                                              TECHNICAL ASSISTANCE

 Throughout the reporting period, OIG staff provided telephone technical help to NEH grantees and independent pub-
 lic accountants about various matters. Generally, these involve the preparation of indirect cost proposals and imple-
 mentation of the audit requirements of OMB Circular A-133.

 The Office of Inspector General previously published an Accounting System Manual for State Humanities Councils
 which describes a generic accounting system specifically designed for the needs of the state councils. The manual
 was last revised in September 1999. During this reporting period, OIG staff worked on revisions to the manual to in-
 corporate updated information and amend model transactions to conform with generally accepted accounting princi-
 ples.



                  ASSISTANCE TO THE INSTITUTE OF MUSEUM AND LIBRARY SERVICES (IMLS)

 The National Endowment for the Humanities OIG has an interagency agreement to provide investigation assistance
 to the IMLS. The NEH OIG’s responsibilities are limited to an internal review of any allegation, and to obtain inves-
 tigation assistance from another OIG to perform the work. The agreement allows the NEH OIG to recover all direct
 costs and other costs that meet the legal requirements of the Economy Act. During this period, IMLS did not re-
 quest any assistance from the NEH OIG.




NEH OIG Semiannual Report                                  10                                                March 2008
                            PRIOR AUDIT REPORTS UNRESOLVED


   •    Several recommendations from prior FISMA and Information Technology Security reviews remain to
        be addressed. The staff of the NEH Office of Information Resources Management is currently working
        on implementing some of the recommendations.

   •    A finding disclosed in the Independent Auditor’s Report on the financial statements for September 30,
        2006 concerning separation of incompatible duties has not been completely resolved. The NEH has
        made significant progress in separating incompatible duties and has additional plans to refine those
        controls.

   •    An opinion from the Office of the General Counsel (OGC) is required in order to close OIG-06-02 (IA),
        Audit of the Selection, Purchase and Implementation of the Oracle Accounting System, issued July 19,
        2006. It is our understanding that an attorney has been assigned to this matter and we expect an
        opinion that will close the audit recommendation.




NEH OIG Semiannual Report                                  11                                                   March 2008
                                                  TABLE I

                               REPORTING REQUIREMENTS


       The Inspector General Act of 1978, as amended (Public Law 100-504), specifies reporting
       requirements for semiannual reports. The requirements are listed and cross-referenced to the
       applicable pages in this report.


       IG Act Reference       Reporting Requirements                                          Page

       Section 4(a)(2)        Regulatory and Legislative Reviews……………………………… 9

       Section 5(a)(1)        Significant Problems, Abuses, and Deficiencies………………… *

       Section 5(a)(2)        Recommendations for Corrective Action ………………………… *

       Section 5(a)(3)        Prior Significant Recommendations Unimplemented…………… *

       Section 5(a)(4)        Matters Referred to Prosecutive Authorities……………………… 8

       Section 5(a)(5)        Instances Where Information Was Refused or Not Provided…… *

       Section 5(a)(6)        List of Reports Issued………..……………………………………… 3

       Section 5(a)(7)        Summary of Reports Issued.………………………………………. 4-5

       Section 5(a)(8)        Audit Reports - Questioned Costs….……………………………… 13

       Section 5(a)(9)        Audit Report - Funds To Be Put to Better Use.…….…………….. 13

       Section 5(a)(10)       Prior Audit Reports Unresolved…………………………………..… 11

       Section 5(a)(11)       Significant Revised Management Decisions………………………. *

       Section 5(a)(12)       Significant Management Decisions with which OIG Disagreed…. *



        * None this period




NEH OIG Semiannual Report                                 12                                          March 2008
                                                      TABLE II
                                         INSPECTOR GENERAL-ISSUED REPORTS
                                               WITH QUESTIONED COSTS


                                                                              Number     Questioned     Unsupported
                                                                            Of Reports    Cost            Cost
         A. For which no management decision has been made by the                  -1-    $100,000        $-0-
            commencement of the reporting period.

         B. Which were issued during the reporting period.                         -0-     $ -0-          $-0-

                                     Subtotals (A+B)                               -1-    $100,000        $-0-

         C. For which a management decision was made during
            the reporting period.

                  i.    Dollar value of disallowed costs.                          -0-     $ -0-          $ -0-

                  ii.   Dollar value of costs not disallowed (grantee              -0-     $ -0-          $ -0-
                        subsequently supported all costs).

                  iii. Dollar value of costs not disallowed based on the           -0-     $ -0-           $ -0-
                       “Value of Services Received.”

         D. For which no management decision has been made by the                  -1-    $100,000        $ -0-
            end of the reporting period.

         E. Reports for which no management decision was made within               -1-    $100,000        $ -0-
            six months of issuance.




                                                     TABLE III
                                        INSPECTOR GENERAL-ISSUED REPORTS
                               WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE


                                                                                                      Number        Dollar
                                                                                                      Of Reports    Value

         A. For which no management decision has been made by the commencement                         -0-         $-0-
            of the reporting period.

         B. Which were issued during the reporting period.                                             -0-         $-0-

         C. For which a management decision was made during the reporting period.                       -0-        $-0-

                  i. Dollar value of recommendations that were agreed to by management.                            $-0-

                  ii. Dollar value of recommendations that were not agreed to by                                   $-0-
                      management.

         D. For which no management decision was made by the end of the reporting period.               -0-        $-0-




NEH OIG Semiannual Report                                       13                                                    March 2008
                            GLOSSARY OF AUDIT TERMINOLOGY

        Questioned Cost - A cost that is questioned by the OIG because of an alleged violation of a provision
        of a law, regulation, contract, grant, cooperative agreement, or other agreement or document
        governing the expenditure of funds; because such cost is not supported by adequate documentation;
        or because the expenditure of funds for the intended purpose is unnecessary or unreasonable.

        Unsupported Cost - A cost that is questioned because of the lack of adequate documentation at the
        time of the audit.

        Disallowed Cost - A questioned cost that management, in a management decision, has sustained or
        agreed should not be charged to the government.

        Funds Be Put To Better Use - Funds, which the OIG has disclosed in an audit report, that could be
        used more efficiently by reducing outlays, de-obligating program or operational funds, avoiding
        unnecessary expenditures, or taking other efficiency measures.

        Management Decision - The evaluation by management of the audit findings and recommendations
        and the issuance of a final decision by management concerning its response to such findings and
        recommendations.

        Final Action - The completion of all management actions, as described in a management decision,
        with respect to audit findings and recommendations. When management concludes no action is
        necessary, final action occurs when a management decision is made.

        Source: Excerpt from Section 106(d) of the Inspector General Act Amendments of 1988 (P.L. 100-
        504).




NEH OIG Semiannual Report                                   14                                           March 2008
